NO. 20-839
IN THE SUPREME COURT OF THE UNITED STATES

KENNETH GREENWAY,
Petitioner,
vs.
BANKS COUNTY, GEORGIA, et al.,
Respondents.
CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the
document contains 5,198 words, based on a count by commercial
software, excluding the parts of the document that are exempted by
Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true
and correct.
WILLIAMS, MORRIS & WAYMIRE, LLC
/s/ Jason Waymire
JASON WAYMIRE

